U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 1, 2021

The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Holloway v. Rosen
S. Ct. No. 20-782

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 3,
2020. The government’s response is now due, after one extension, on March 1, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including March 10, 2021 within which to file the government’s response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0782
HOLLOWAY, RAYMOND, JR.
WILLIAM P. BARR, ATTORNEY GENERAL

JOSEPH GARY SAMUEL GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
916-378-5785
JGR@FPCHQ.ORG
DAVID T HARDY
8987 E. TANQUE VERDE
NO. 265
TUCSON, AZ 85749
520 749-0241
DTHARDY@MINDSPRING.COM
JOHN J. PARK
STRICKLAND BROCKINGTON LEWIS LLP
1170 PEACHTREE STREET NE
SUITE 2200
ATLANTA , GA 30309
678-347-2208
JJP@SBLLAW.NET
QUENTIN M. RHOADES
RHOADES, SIEFERT & ERICKSON, P.L.L.C.
430 RYMAN STREET
MISSOULA, MT 59802
406-721-9700
QMR@MONTANALAWYER.COM

